Kyle D. Hawkins
Solicitor General

(512) 936-1700
kyle.hawkins@oag.texas.gov

January 14, 2020
Via E-File and Federal Express
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
sharris@supremecourt.gov
Re:

Zadeh v. Robinson, No. 19-676
Motion to Extend Time to File Response to Petition for Writ of
Certiorari

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondents respectfully request an extension of the time for filing a response to the petition for writ of certiorari in Zadeh v.
Robinson, No. 19-676.
The response is currently due on February 7, 2020. A 30-day extension is needed
because of the press of business from numerous complex matters with deadlines near
the current deadline, which require significant time and attention from the undersigned counsel and other counsel assisting with this matter. Those matters include
oral argument in City of Conroe v. San Jacinto River Authority, No. 18-0989, in the
Supreme Court of Texas on January 9, 2020; Respondents’ Response to Petitioners’
Motion to Expedite in California v. Texas, No. 19-840, and U.S. House of Representatives v. Texas, No. 19-841, filed in this Court on January 10, 2020; Respondent’s Brief
in Opposition to the Petition for a Writ of Certiorari in Ayestas v. Davis, No. 19-569,
filed in this Court on January 13, 2020; Brief for the State of Texas as Amicus Curiae
in In re Academy, Ltd. d/b/a Academy Sports + Outdoors, No. 19-0497, to be filed in
the Supreme Court of Texas on January 14, 2020; en banc oral argument in Brackeen
v. Bernhardt, No. 18-11479, in the Fifth Circuit on January 22, 2020; Appellee’s Principal Brief in Cotropia v. Chapman, No. 19-20688, to be filed in the Fifth Circuit on
P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Scott S. Harris
January 14, 2020
Page 2
January 24, 2020; Response Brief for Plaintiffs-Appellees and Principal Brief for
Plaintiffs-Cross-Appellants in Texas v. Rettig, No. 18-10545, to be filed in the Fifth
Circuit on January 29, 2020; oral argument in Ex parte E.H., No. 18-0932, in the
Supreme Court of Texas on January 29, 2020; and oral argument in Woolverton v.
Gratz, No. 18-11373, in the Fifth Circuit on February 5, 2020.
No prejudice would arise from the requested extension.
For the foregoing reasons, Respondents respectfully request an extension of the
deadline for filing a response to the petition for writ of certiorari, creating a new
deadline of Monday, March 9, 2020, in accordance with Supreme Court Rule 30.1.
Respectfully submitted.
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Kyle.Hawkins@oag.texas.gov
Counsel for Respondents
cc:

Paul W. Hughes (Counsel for Petitioners)

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

